t=
\

C@QCKLE

. E-Mail Address:
Legal Briefs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214
Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-968

CHIKE UZUEGBUNAM AND JOSEPH BRADFORD,
Petitioners,
v.

STANLEY C. PRECZEWSKL, JANN L. JOSEPH,
LOIS C. RICHARDSON, JIM B. FATZINGER
TOMAS JIMINEZ, AILEEN C. DOWELL, GENE RUFFIN,
CATHERINE JANNICK DOWNEY, TERRANCE
SCHNEIDER, COREY HUGHES, REBECCA A. LAWLER,
AND SHENNA PERRY,

Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICUS
CURIAE AMERICAN HUMANIST ASSOCIATION IN SUPPORT OF PETITIONERS in the
above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 2743 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 29th day of September, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

een | Kens 0. thao Ondiabt. hie

My Comm. Exp. September 5, 2023

 

Notary Public Affiant 40006
